OFFICE OF AUDIT
INFORMATION SYSTEMS AUDIT DIVISION
WASHINGTON, DC




           Office of the Chief Procurement Officer
                       Washington, DC

           HUD’s Integrated Core Financial System




2013-DP-0002                                   December 4, 2012
                                                        Issue Date: December 4, 2012

                                                        Audit Report Number: 2013-DP-0002




TO:            Jemine A. Bryon, Chief Procurement Officer, N

FROM:          //signed// Hanh T. Do, Director, Information Systems Audit Division, GAA


SUBJECT:       Audit of Incorrect Payments to the Project Contractor for Data Conversion Tasks
               Related to the Implementation of HUD’s Integrated Core Financial System



    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of Incorrect Payments to the Project
Contractor for Data Conversion Tasks Related to the Implementation of HUD’s Integrated Core
Financial System.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
202-402-8147 or Dorothy Bagley at 202-402-8139.
                                            December 4, 2012
                                            Audit of Incorrect Payments to the Project Contractor
                                            for Data Conversion Tasks Related to the
                                            Implementation of HUD’s Integrated Core Financial
                                            System


Highlights
Audit Report 2013-DP-0002


 What We Audited and Why                     What We Found

We audited the U.S. Department of           OCFO incorrectly paid the Integrated Financial
Housing and Urban Development’s             Management Improvement Project contractor for tasks
(HUD)’s plans and procedures for data       that were not completed. Specifically, OCFO
conversion of the HUD Integrated Core       incorrectly paid more than $1.3 million to the Project
Financial System (ICFS). Our audit          contractor for one contract task, although it did not
objective was to review HUD’s               receive the contract deliverables associated with those
readiness to fully implement ICFS and       tasks. Also, OCFO paid the entire amount of another
determine whether HUD had properly          contract task before ensuring that the task had been
managed the payments related to data        completed.
conversion activities.

We conducted this audit as a component
of the testing of general and technical
controls for information systems in
connection with the annual audit of
HUD’s consolidated financial
statements.


 What We Recommend

We recommend that the Office of the
Chief Procurement Officer (OCPO)
obtain reimbursement for payment from
the Project contractor for the incomplete
contract tasks. Also, it should ensure
that future fixed-price contracts require
that a contract deliverable be associated
with each payment on the partial
payment schedule. Lastly, it should
ensure that future fixed-price contracts
with partial payment schedules include
a requirement to withhold a percentage
of the contracted amount for each task
until the task is completed.
                           TABLE OF CONTENTS


Background and Objectives                                                      3

Results of Audit
      Finding 1: OCFO Did Not Ensure That Payments to the Project Contractor   4
                Were Correct

Scope and Methodology                                                          8

Internal Controls                                                              9

Appendixes
A.    Auditee Comments and OIG’s Evaluation                                    10




                                            2
                         BACKGROUND AND OBJECTIVES

The U.S. Department of Housing and Urban Development’s (HUD)’s Integrated Financial
Management Improvement Project, a project under the HUD Transformation Initiative, was
created to facilitate the implementation of a new departmental core financial system, HUD’s
Integrated Core Financial System (ICFS). HUD plans for ICFS to replace the HUD Central
Accounting and Program System (HUDCAPS)1 and the Program Accounting System (PAS),2
two of HUD’s five3 main financial management applications.

The initial scheduled implementation date for ICFS was March 2012. In the summer of 2011,
the Project contractor proposed changing the implementation date to May 2012. This new date
was not formally approved. In March 2012, the project was stopped, and HUD began
reevaluating its options for the Project. HUD could revise the Project plan to implement a “go
live” in the first or second quarter of fiscal year 2013 or develop and implement a “phased”
approach in fiscal year 2013 or 2014. This change in direction would require that HUD quickly
address the risks; apply additional resources; and analyze contract, funding, and Project schedule
issues. If this was not possible, another option was to cancel the implementation of ICFS and
stay with HUDCAPS. However, staying with HUDCAPS would require enhancements to the
legacy financial system over time to reduce risk associated with audit, security, financial
reporting, and operational effectiveness. HUD is reassessing its options for the Project. To date,
HUD has spent more than $35 million on the Project.

Our audit objective was to review HUD’s readiness to fully implement ICFS. Specifically, we
wanted to determine whether HUD had properly managed the payments related to data
conversion activities for the implementation of ICFS.




1
 HUDCAPS captures, reports, controls, and summarizes the results of the accounting processes, including budget
execution and funds control, accounts receivable and collections, accounts payable, and the general ledger.
2
  PAS is an integrated subsidiary ledger for HUD’s grant, subsidy, and loan programs. PAS maintains accounting
records based on the receipt of funding authorizations from HUDCAPS, which generates transaction activity at
different levels.
3
 HUDCAPS, PAS, Hyperion - HUD’s consolidated financial statement system, Financial DataMart, and the Line of
Credit Control System


                                                       3
                                       RESULTS OF AUDIT


Finding 1: OCFO Did Not Ensure That Payments to the Project
Contractor Were Correct
The Office of the Chief Financial Officer (OCFO) incorrectly paid the Project contractor for data
conversion tasks that were not completed. Specifically, OCFO paid (1) more than $1.3 million
to the Project contractor, although it did not receive the contract deliverables related to cutover
tasks required for the implementation of ICFS and (2) for a contract task to build and unit test
before ensuring that the task was completed. These conditions occurred because the payment
schedule in the Project contract was not set up properly to comply with HUD regulations and
meet the contract requirement. Also, a project deliverable review and approval process was not
adequate. As a result, the Project contractor received a $1.67 million payment for incomplete
work and should have been paid only $312,500. Also, OCFO could not ensure that the Project
objectives were met.


    OCFO Incorrectly Paid the
    Project Contractor for Tasks
    That Were Not Completed


                  OCFO incorrectly paid more than $1.3 million to the Project contractor for the
                  cutover4 contract task, although it did not receive the contract deliverables. In
                  May 2012, a stop work order was issued, resulting in the reassessment of each
                  contract task. Prior to the stop work order the Project contractor had received
                  partial payments for cut over tasks totaling $1.67 million.

                  As of June 4, 2012, the contractor had submitted only one of the seven contract
                  deliverables. The Project contractor did not submit the contract deliverables that
                  were due to HUD between December 2011 and March 2012. However, OCFO
                  officials continued to make partial payments to the contractor.

                  Based on work that was completed, the contractor should have been paid only
                  $312,500, and HUD should be reimbursed more than $1.3 million. See the table
                  below.




4
  The cutover contract task requires the contractor to perform tasks such as conducting a production readiness review
for OCFO; providing support and coordination to conduct the go live, which includes executing the production data
conversion and tasks as defined in the transition cutover plan; and providing post implementation support, help desk
support for production issues, and support for the analysis and evaluation of the PeopleSoft software release after go
live.

                                                          4
                  Total amount paid to the Project contractor                      $1,668,424
                  Total amount that should have been paid based on
                  work completed by the Project contractor                         $ 312,500
                  Amount to be reimbursed to HUD                                   $1,355,924

                 OCFO paid the entire amount of the contract task without ensuring that the task
                 had been completed. In September 2011, HUD paid the Project contractor the full
                 amount of $220,051 for work associated with the contract task to build and unit
                 test ICFS PeopleSoft production environments.5 However, one of the required
                 contract deliverables for this task was not received until March 2012 and was not
                 accepted by OCFO until May 2012. Paying the contractor the total price of the
                 contract task before all contract deliverables were received and all completed
                 contract tasks were accepted by HUD could limit OCFO’s ability to enforce the
                 contract and negatively impact the implementation of ICFS.

    The Project Deliverable Review
    Was Inadequate and the
    Payment Schedule Was
    Noncompliant


                 The conditions above occurred because the project deliverable review and
                 approval process used by OCFO officials was not adequate and the payment
                 schedule set up in the contract for the cut-over contract task did not comply with
                 HUD procurement requirements.

                 The government technical representative did not always verify that the
                 deliverables or services were completed and accepted by HUD before the
                 payment approval. HUD management was negotiating with the Project contractor
                 to change the contract monitoring approach from a “contract deliverable” base to
                 an “outcome deliverable” base. HUD Handbook 2210.3, Procurement Policies
                 and Procedures, REV-9, section 12-6, states that for fixed-price contracts, the
                 government technical representative should verify that all deliverables and
                 services included on the invoice have been inspected and are acceptable. The
                 Project government technical representative approved payments to the contractor
                 once there was evidence that the contractor had started each task. However,
                 contract deliverables were not completed or approved for full payment. The
                 government technical representative did not verify whether the deliverables and
                 services were acceptable before payment.


5
 The contract task of build and unit test ICFS PeopleSoft production environments requires the contractor to
perform tasks such as configuring and validating configuration of production environments and setting up the
performance test environment for disaster recovery and the disaster recovery environment for production. The
contractor also must conduct unit testing of the production and disaster recovery environments and resolve
deficiencies identified.

                                                        5
             The partial payment schedule included in the Project contract did not comply with
             HUD acquisition regulations, which require the contractor to provide deliverables
             to receive each partial payment. As a result, the Project contractor continued to
             receive the partial payments if the contract deliverables were in progress, even if
             contract tasks failed or were incomplete. Section 2452.232-70 of the regulations
             requires that the partial payment schedule include applicable contract deliverables
             for each partial payment. Without having specific deliverables associated with
             each payment on the payment schedule, HUD cannot ensure that the contractor
             implements the contract tasks as required in the contract and in a timely manner
             before approving each partial payment. In addition, the partial payment schedule
             did not include a requirement to withhold a percentage of the contracted amount
             for each task until the task was completed. The Project contract requires that all
             partial payments be contingent upon the acceptance of all work completed during
             the period covered by the partial payment. While the partial payment schedule in
             the Project contract included the requirement for some contract tasks, the
             requirement was not included for 42 of 61 contract tasks under the base contract
             period. As a result, OCFO did not withhold any contract amount to ensure that
             these tasks were completed before the contractor received the full payment for the
             cut-over contract task.

Conclusion

             OCFO did not properly manage the payments related to data conversion activities
             of the Project. Specifically HUD did not have a payment schedule that complied
             with HUD procurement requirements, which led to payments to the contractor
             without corresponding completed project deliverables. Without properly
             reviewing and verifying all deliverables and services provided by the contractors,
             HUD could not ensure that contract requirements would be achieved. As a result,
             the contractors received a $1.67 million payment for incomplete contract tasks,
             when they should have been paid only $312,500. Also, OCFO cannot ensure all
             Project objectives are met due to the improper management of the data conversion
             activities.

             Recommendations are addressed to the Office of the Chief Procurement Officer
             because reimbursement payment issues cannot be addressed by OCFO. The
             Office of the Chief Procurement Officer has begun the process of recouping the
             more than $1.3 million from the Project contractor.




                                              6
Recommendations

          We recommend that the Office of the Chief Procurement Officer:
          1A. Continue to seek reimbursement of $1,355,924 from the Project contractor
              for the contract task of cutover or hold the Project contractor responsible to
              complete the contract requirement.
          1B. Ensure that future fixed-price contracts require that a contract deliverable be
              associated with each payment on the partial payment schedule.
          1C. Ensure that future fixed-price contracts with partial payment schedules
              include a requirement to withhold a percentage of the contracted amount for
              each task until the task has been completed.




                                           7
                         SCOPE AND METHODOLOGY

The audit was performed between February and June 2012 at HUD headquarters, Washington,
DC. Data reviewed were for the period 2004, the initiation of the Project, to July 2012, after the
base period of the contract ended. Our overall objective was to evaluate whether HUD was
ready to move forward with the full implementation of ICFS. During this review, we noted
incorrect payments to the contractor for some contract tasks. To accomplish our objective of
reviewing HUD’s management of payments related to data conversion activities, we

      Used Office of Management and Budget Circular A-127, HUD acquisition regulations,
       and HUD Handbook 2210.3, Contractor Costs and Payments, as guidance.
      Conducted interviews with staff and contractors from OCFO and the Office of the Chief
       Procurement Officer and reviewed the Project contract.
      Obtained an understanding of the data conversion specifications and the Project
       deliverable and approval process.
      Reviewed the contract and supporting documentation for data conversion methodologies.
      Obtained an understanding of the contract payment approval process and contract
       payment status of data conversion related contract tasks.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                8
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  Up-to-date written policies and procedures to ensure that data conversion and
                   interfaces were complete and valid.
                  Compliance with Federal requirements.
                  Design and implementation of policies and procedures.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               OCFO lacked adequate controls to ensure that payments to the Project contractor
               were correct. Further, OCPO did not ensure that the partial payment schedule
               was properly set up in the contract (finding 1).



                                                 9
Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2



Comment 3




                         10
                       OIG Evaluation of Auditee Comments

Comments 1, 2, and 3    OIG concurs with OCPO comments (Auditee comments to 1A,
                        2A, 2A correspond to recommendations 1A, 1B, and 1C)




                                       11
